    April 30, 2003




Logistics

International DoD Air Freight
Tenders
(D-2003-085)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
AMC                   Air Mobility Command
CRAF                  Civil Reserve Air Fleet
GSA                   General Services Administration
MRM                   Management Reform Memorandum
MTMC                  Military Traffic Management Command
USTRANSCOM            U.S. Transportation Command
          Office of the Inspector General of the Department of Defense
Report No. D-2003-085                                                        April 30, 2003
   (Project No. D2002LH-0126)

                     International DoD Air Freight Tenders

                                 Executive Summary

Who Should Read This Report and Why? Logistics officials responsible for the
oversight, control, and payment of DoD freight shipments should read this report. The
report discusses the benefits of standardizing international air freight tenders, which are
used for transporting DoD freight.
Background. The DoD transportation mission involves many transportation
communities and assets, services, and systems owned by, contracted for, or controlled by
DoD. The U.S. Transportation Command serves as the manager of the transportation
community and is supported by the Military Traffic Management Command, the Military
Sealift Command, and Air Mobility Command.

Results. Air Mobility Command and Military Traffic Management Command have
standardized freight tenders for most modes of transportation but need to standardize
international air freight tenders to protect the interests of DoD. Our review of 12 of
76 international DoD air freight tenders revealed that transportation officers did not have
the necessary tools to perform a best value analysis of air tenders before selecting carriers
to transport air freight. DoD also lacked adequate visibility over the usage of
international air freight tenders. Air Mobility Command could provide tools and increase
visibility by prioritizing the establishment of standard rules for international air freight
tenders, posting information to a Web site, and incorporating additional information on
both domestic and international tenders in the new transportation routing system.
Standardizing the international air tenders could also help DoD avoid unnecessary
transportation and other costs. In addition, by improving the international tender review
process, Air Mobility Command could ensure that international air freight tenders are
from qualified carriers and do not compete with mandatory transportation services.
Further, DoD could more fully implement a single automated billing and payment
process and achieve the expected benefits of DoD Management Reform Memorandum
No. 15 if Air Mobility Command required carriers to use PowerTrack for international air
tenders to the maximum extent possible. Improving controls will correct the material
management control weaknesses identified by the audit. (See the Finding section of the
report for the detailed recommendations.)

Management Comments and Audit Response. The U.S. Transportation Command
generally concurred with the recommendations to standardize international air freight
tenders, establish a process for electronically entering international air freight tender
information into the new transportation routing system, and direct carriers to use
PowerTrack. The U.S. Transportation Command partially concurred with posting
information to a Web site and improving the international tender review process.
Although not required to comment, the Army agreed with the recommendations and the
Air Force agreed with most of the recommendations. In response to the recommendation
that the Air Mobility Command comply with its policy that international air tenders
should not compete with certain channel flights, which are a type of mandatory
transportation service, the Air Force stated that international air tenders should be
allowed as alternatives when the Air Mobility Command channel flights are unavailable
to meet mission requirements. A discussion of management comments is in the Finding
section of the report and the complete text is in the Management Comments section.

The U.S. Transportation Command comments were not fully responsive. Planned
completion dates were not provided for establishing a process for standardizing
international air freight tenders and establishing a process for entering international air
freight tender information into the new transportation routing system. The U.S.
Transportation Command agreed to direct carriers to use PowerTrack, stating the draft
guidance already required the use of PowerTrack. However, the draft guidance needs to
be revised to specify the situations in which carriers will be required to use PowerTrack,
as carriers cannot always use PowerTrack until DoD fully implements that system. U.S.
Transportation Command comments were not fully responsive regarding posting
information to a Web site. The U.S. Transportation Command stated that a matrix of
international air tenders is posted to the Air Mobility Command’s Web site and updated
monthly and that the actual international air tenders do not need to be posted to the Web
site as paper copies can be used. Relying on paper copies violates the principles of
electronic commerce and DoD Management Reform Memorandum No. 15. The U.S.
Transportation Command generally agreed with the recommendation on improving the
international tender review process, stating that the actions had already been taken or
were not needed. However, the review process had not been fully implemented. In
addition, review actions are needed to ensure that international air tenders do not compete
with mandatory transportation services and that transportation officers have the necessary
tools to perform a best value analysis before selecting carriers to transport air freight. We
request that the Commander, Air Mobility Command and the Commander, Military
Traffic Management Command comment on this report by June 30, 2003.
Table of Contents

Executive Summary                                       i

Background                                             1

Objectives                                             3

Other Matters of Interest                              3

Finding
     Management of International Air Freight Tenders    4

Appendixes
     A. Scope and Methodology                          36
          Management Control Program Review            37
     B. Report Distribution                            38

Management Comments
     U.S. Transportation Command                       41
     Department of the Army                            47
     Department of the Air Force                       48
Background
    The DoD transportation mission involves many transportation communities and
    assets, services, and systems owned by, contracted for, or controlled by DoD.
    The entire infrastructure supports the transportation needs of DoD in peace and
    war. The U.S. Transportation Command (USTRANSCOM) serves as the
    manager of the transportation community and is supported by the Military Traffic
    Management Command (MTMC), the Military Sealift Command, and the Air
    Mobility Command (AMC).

    Selecting Best Value Transportation Services. It is DoD policy to procure
    transportation and related services using a best value process. A best value
    analysis takes into account numerous factors, including quality of the service,
    cost, service provisions, claims experience, provider availability, and
    PowerTrack® usage. DoD acquires transportation and related services through a
    variety of flexible procurement instruments, including offers to provide services
    (tenders) and Federal Acquisition Regulation-based contracts. Tenders can be
    either negotiated or voluntary. Voluntary tenders are unsolicited offers of
    transportation services submitted by commercial carriers to AMC or MTMC for
    approval.

    Air Transportation Services. AMC is the single manager for air mobility and
    provides air transportation services with DoD aircraft and through Federal
    Acquisition Regulation-based contracts and tenders with U.S. commercial air
    carriers. For example, AMC provided channel airlift transportation over
    established worldwide routes using both commercial aircraft under Federal
    Acquisition Regulation-based contracts and DoD aircraft.

    Management Reform Memorandum No. 15. The 1997 Secretary of Defense
    “Quadrennial Defense Review” directed DoD to revolutionize its business
    practices. As a result, the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer issued Management Reform Memorandum (MRM) No. 15 on
    July 7, 1997. The objective of MRM No. 15 was to reengineer and streamline
    DoD commercial transportation documentation, billing, collection, and payment
    processes. The specific reengineering goals included the following:

           •   reducing infrastructure costs,

           •   eliminating DoD-unique documentation and processes,

           •   reducing data requirements,

           •   improving data accuracy,

           •   developing a single documentation and billing process for all modes of
               transportation,

           •   employing best commercial practices,




                                          1
            •    maintaining readiness capability, and

            •    increasing the use of electronic commerce.

In an effort to meet the MRM No. 15 objectives, DoD announced on March 31,
1999, the conversion to U.S. Bank’s PowerTrack for the payment of commercial
transportation freight charges.

PowerTrack Service. PowerTrack provides DoD with the means to completely
reengineer transportation documentation, accounting, and payment processes.
PowerTrack is a commercial on-line freight payment and transaction tracking
system developed by U.S. Bank. PowerTrack provides carriers and DoD
transportation officers with on-line access to shipment data; matches freight bills
of lading and corresponding invoices; processes payments to carriers; and
provides relatively real-time analytical reporting tools. PowerTrack is intended to
electronically interface with DoD accounting systems. In addition, PowerTrack
stores DoD transportation data and reduces the need to maintain DoD-unique
documentation.

Standardization of Freight Tenders. AMC and MTMC have standardized
domestic1 air, motor, pipeline, rail, and tank-truck tenders. According to a
MTMC official, as of March 2003, MTMC had not standardized barge tenders.
In addition, as of March 2003, AMC had not standardized international2 air
freight tenders. MTMC officials stated that, in general, barge tenders were
guaranteed traffic or negotiated tenders, which were awarded based on
solicitations. The international air tenders were not based on a solicitation
process; they were voluntary offers by air carriers.

Standardization of Air Freight Tenders. AMC standardized domestic air
freight tenders, but as of March 2003, AMC had not standardized international air
freight tenders. There were 1,368 domestic tenders as of October 1, 2002, and
76 international tenders as of August 26, 2002. Shipments via domestic air
tenders totaled $64 million from April 1 through September 30, 2002. The value
of shipments via international air tenders for FY 2002 was not available because
DoD did not track information on the usage of international air tenders.

         Domestic Air Freight Tenders. “AMC Freight Traffic Rules Publication
No. 5” (Publication No. 5), January 15, 1999, defines the standards, rules, and
accessorial charges3 for domestic air tenders, which are used for transporting DoD
freight within the continental United States. Publication No. 5 defines the
domestic air transportation needs of DoD, provides the procedures to ensure that
air freight carriers have both the willingness and the capability to meet those
needs, and provides the standardization necessary to achieve an automated system

1
    Domestic generally means the continental United States (normally excluding Alaska and
    Hawaii).
2
    International generally means outside the continental United States.
3
    Accessorial charges are for services provided by carriers in addition to transportation of freight
    and include pickup and delivery on weekends and holidays and handling hazardous materials
    and oversized freight.



                                                2
     for routing DoD air freight. Publication No. 5 requires that air carriers use
     PowerTrack for domestic freight tenders. In addition, “MTMC Standard Tender
     Instruction Publication No. 364-C” (Publication No. 364-C), September 1, 2000,
     provides guidance to air carriers for submitting domestic tenders in a standard
     format on MT Form 364-R, “Department of Defense Standard Tender of Freight
     Services” (Form 364-R).

             International Air Freight Tenders. AMC had proposed guidance to
     standardize international air freight tenders in an updated draft of “AMC Freight
     Traffic Rules Publication No. 5” (Draft Publication No. 5). Draft Publication
     No. 5 was posted to the MTMC Web site in March 2001 and air carriers were
     given 60 days to comment, but the guidance had not been finalized as of
     March 2003.


Objectives
     The overall audit objective was to determine the effectiveness of procedures and
     controls over DoD freight shipments paid through PowerTrack. Specifically, for
     this report we evaluated the international air tender submission and approval
     process and reviewed the management control program as it related to the audit
     objective.

     We did not evaluate the effectiveness of established payment procedures and the
     controls over delivery of freight shipments because PowerTrack data was not
     readily available for analysis of freight shipments using data mining
     methodology. Therefore, the audit work on those objectives was terminated. In
     September 2002, the Assistant Deputy Under Secretary of Defense
     (Transportation Policy), USTRANSCOM, the Defense Manpower Data Center,
     and U.S. Bank signed an agreement for electronic long-term data storage and
     distribution capabilities. The Defense Manpower Data Center will provide a
     single, central data repository of PowerTrack data. See Appendix A for a
     discussion of the audit scope and methodology and our review of the management
     control program.


Other Matters of Interest
     Although barge tenders were not standardized, we did not evaluate the barge
     tender submission and approval process. According to a MTMC official, as barge
     tenders expire, they are being replaced with Federal Acquisition Regulation-based
     contracts.




                                          3
                Management of International Air
                Freight Tenders
                Transportation officers did not have the necessary tools to perform a best
                value analysis of air tenders before selecting and approving carriers to
                transport air freight. DoD also lacked adequate visibility over the usage of
                international air tenders. In addition, some international air tenders were
                not from qualified carriers and competed with mandatory transportation
                services. Further, DoD could more fully implement a single automated
                billing and payment process in accordance with MRM No. 15.

                The problems with international air freight tenders occurred because AMC
                had not standardized international air tenders. AMC also had not required
                all tender information to be entered into DoD transportation routing
                systems or required carriers to provide data on tender usage. In addition,
                AMC had not adequately reviewed international air tenders before
                approval. Further, AMC had not required that the PowerTrack automated
                payment system be used for carrier billings and payments.

                As a result, DoD may be incurring unnecessary transportation and other
                costs. In addition, DoD may not have effectively planned and used
                Federal Acquisition Regulation-based contracting and channel flights as
                alternatives to international air tenders and may not be achieving the
                expected benefits of MRM No. 15.


Use of International Air Freight Tenders
     For international shipments, the available shipping options include international
     air freight tenders, Federal Acquisition Regulation-based contracts, and AMC
     channel flights. Available shipping options are based on a shipment’s weight,
     origin, and destination. In general, international air freight tenders can be used
     for international shipments over 150 pounds.

     Shipping Options Within the Continental United States. For air shipments
     within the continental United States, a General Services Administration (GSA)
     small package contract4 must be used for shipments weighing 150 pounds or less.
     For air shipments over 150 pounds, domestic air tenders may be used.
     International air tenders cannot be used.




     4
         As of December 2002, there were four GSA small package contracts in place.



                                                  4
Shipping Options for Alaska, Hawaii, and Puerto Rico. Air shipments
between the continental United States and Alaska, Hawaii, or Puerto Rico must be
made using a GSA small package contract if the shipment weighs 150 pounds or
less and may be made using international air tenders if the shipment weighs over
150 pounds. Air shipments between Alaska, Hawaii, or Puerto Rico and most
international locations must be made using a Worldwide Express contract5 if the
shipment weighs 150 pounds or less and may be made using international air
tenders if the shipment weighs over 150 pounds. Figure 1 shows the
transportation options for air shipments to and from Alaska, Hawaii, and Puerto
Rico.




            International
                 Tenders
                                 GSA Small
                                  Packages



                                                     WWX
                                                                     International
                                                                      Locations*

                                                  International
                                                       Tenders


WWX Worldwide Express
*Excluding the international locations shown in Figure 2.



Figure 1. Shipping Options for Alaska, Hawaii, and Puerto Rico

5
As of December 2002, there were three Worldwide Express contracts in place.



                                           5
Shipping Options for Six Locations With Daily Channel Flights. The
six locations with daily channel flights are Frankfurt, Germany; Inchon, Korea;
Kuwait; Prince Sultan Air Base, Saudi Arabia; Ramstein Air Base, Germany; and
Seoul, Korea. Air shipments between the six locations and the United States
(including Alaska, Hawaii, and Puerto Rico) must be made using a Worldwide
Express contract if the shipment weighs 150 pounds or less and using a channel
flight if the shipment weighs over 150 pounds. International air tenders cannot be
used. In November 2001, AMC notified air carriers that offers of service to the
six locations would have to be eliminated from international air tenders by
December 31, 2001. Figure 2 shows the transportation options for air shipments
to and from the six locations.




                                         Daily
                          WWX           Channel
                                        Flights

                          Frankfurt, Inchon,
                         Kuwait, Prince Sultan
                          AB, Ramstein AB,
                              and Seoul


  AB  Air Base
  WWX Worldwide Express


Figure 2. Shipping Options for Six Locations With Daily Channel Flights




                                    6
Shipping Options for Other International Locations.6 For air shipments to and
from other international locations, which weigh 150 pounds or less, the
Worldwide Express contracts must be used. For air shipments over 150 pounds,
international air tenders or channel flights may be used, although the channel
flights are not operated on a daily basis. Figure 3 shows the transportation
options for air shipments to, from, and between other international locations.




                    International           Channel         WWX
                      Tenders               Flights


                                           Other
                                       International
                                         Locations



                    International           Channel          WWX
                      Tenders               Flights


                                           Other
                                       International
                                         Locations




Figure 3. Shipping Options for Other International Locations



6
Other international locations are international locations excluding Alaska, Hawaii, Puerto Rico,
and the six international locations with daily channel flights. Shipping options among those six
locations are the same as between other international locations, shown in Figure 3.



                                           7
Selection of International Air Freight Tenders for Review
     According to AMC files of international air tenders, as of August 26, 2002, 12 air
     carriers had filed 76 international air freight tenders. We judgmentally selected
     and analyzed one tender for each carrier. Table 1 shows the locations served by
     the 12 tenders reviewed, which were filed on Optional Form 280, “Uniform
     Tender of Rates and/or Charges for Transportation Services.” Publication No. 5
     requires that tenders offering transportation “within the contiguous United
     States,” which excludes Alaska, Hawaii. Puerto Rico, and Canada, be filed on
     Form 364-R. Although the criteria for tenders is clear, the GSA small package
     and Worldwide Express contracts define domestic as including Alaska, Hawaii,
     and Puerto Rico. AMC officials stated that Alaska and Hawaii are gray areas
     because they are defined as international locations for tenders but are defined as
     domestic locations for the contracts. However, because AMC had allowed all 12
     of the tenders to be filed on Optional Form 280 and had included them in the
     AMC files of international air tenders, it was appropriate to include all 12 tenders
     in our sample.


                       Table 1. Locations Served by the 12 Tenders

       No. of                                Locations Served
      Tenders                      Origin                                Destination

          1     1. Continental U.S.                             Continental U.S.

          1     2. Continental U.S., AK, & HI                   Continental U.S., AK, & HI

          1     3. Continental U.S. & Canada                    Continental U.S. & Canada

          1     4. Continental U.S.                             Hawaii

          1     5. Continental U.S.                             AK, HI, & PR

          1     6. Continental U.S., AK, HI, & PR               AK, HI, & PR

          1     7. Continental U.S., AK, HI, & PR               International Locations

          1     8. Continental U.S., Canada, AK, HI, & PR       International Locations

          1     9. Continental U.S.                             International Locations

          1     10. U.S.                                        International Locations

          2     11-12. International Location(s)                International Locations

          AK         Alaska
          HI         Hawaii
          PR         Puerto Rico




                                            8
Best Value Analysis of and Visibility Over Air Freight Tenders
     The transportation officers did not have the necessary tools to perform a best
     value analysis of air freight tenders before selecting carriers. Also, DoD lacked
     adequate visibility over the usage of international air tenders. In addition, some
     international air tenders were not from qualified carriers and competed with
     mandatory services provided by Federal Acquisition Regulation-based contracts
     and the six channel flights. Further, DoD had not fully implemented a single
     automated billing and payment process in accordance with MRM No. 15. The
     goals of MRM No. 15 include increasing the reliance on electronic commerce,
     reducing data requirements, and developing a single documentation process.

     Best Value Analysis of Air Tenders. The transportation officers did not have
     the necessary tools to perform a best value analysis of air tenders before selecting
     carriers. The tools were lacking for both international and domestic air
     shipments.

            Best Value Analysis of International Air Tenders. A best value
     analysis takes into account quality of the service, cost, and service provisions.
     Necessary tools for a best value analysis include both electronic and comparable
     data.

             Electronic information for the best value analysis for international air
     tenders was not available to transportation officers. Transportation officers had to
     obtain the information from either:

                    •   price quotes obtained from the air carriers, or

                    •   a manual computation based on paper copies of the tenders
                        obtained from AMC or the carriers.

             In contrast, for domestic air tenders, transportation officers generally had
     electronic access to information on tenders. The lack of electronic information on
     international air tenders is contrary to MRM No. 15.

             Comparable information for the best value analysis of international air
     freight tenders was not readily available to transportation officers. In contrast, for
     domestic air tenders, transportation officers had access to comparable information
     on tenders. The domestic air tender information was comparable because the
     tenders were governed by Publication No. 5 and Publication No. 364-C, which
     standardize domestic air tenders. Because the information on domestic air tenders
     was comparable, transportation officers could generally obtain and rely on
     computer-generated comparisons of tenders. In contrast, the information for
     international air tenders was not readily comparable because it was not
     standardized by DoD. The individual carriers varied in their:

                    •   computation of dimensional weight,

                    •   levels of service,



                                             9
               •      types of accessorial charges,

               •      exceptions to delivery commitments,

               •      unique publications that governed tenders, and

               •      delivery zones.

               Computation of Dimensional Weight. Individual air carriers
defined how dimensional weight was computed. Dimensional weight was used to
compute transportation costs by taking into account the amount of space a
shipment would take up in relation to the actual weight of the shipment. For
domestic tenders, Publication No. 5 states that transportation costs for a shipment
will be based on the greater of the actual weight or dimensional weight.
Publication No. 5 also provides that dimensional weight is computed with the
following formula:

       [Length (in inches) x Width (in inches) x Height (in inches)]/194

However, there was no standard way to compute dimensional weight for
international air tenders. Without a standard way to compute dimensional weight,
transportation officers had to make multiple computations to determine which
carrier provided the best value. Table 2 shows the multiple formulas used by the
12 tenders reviewed to compute dimensional weight.


         Table 2. Computation of Dimensional Weight per Tenders

                                                                            No. of
         Formula for the Computation of Dimensional Weight                 Tenders

 No formula                                                                 2
 [Length (in inches) x Width (in inches) x Height (in inches)]/166          2
 [Length (in inches) x Width (in inches) x Height (in inches)]/194          2
 [Length (in cm) x Width (in cm) x Height (in cm)]/6000                     1
 (Greater of Length, Width, and Height)3/139                                1
 (Greater of Length, Width, and Height)3/166                                2
 (Greater of Length, Width, and Height)3/194                                1
 Two different computations depending on destination and origin:
    [Length (in inches) x Width (in inches) x Height (in inches)]/166
    [Length (in inches) x Width (in inches) x Height (in inches)]/194       1


 cm      centimeter


              Using the above formulas results in various dimensional weights.
For example, a package with a length of 15 inches, width of 10 inches, and height
of 8 inches would have dimensional weights varying from 6.19 to 24.28 pounds if
you use inches for the formulas with no given unit of measurement.



                                        10
               The lack of a standard formula for dimensional weight is contrary
to MRM No. 15. Goals of MRM No. 15 include reducing data requirements and
developing a single documentation process. AMC addressed that issue in Draft
Publication No. 5, which will require dimensional weight for an international
shipment to be calculated on the basis of one pound for each 166 cubic inches, as
follows:

       [Length (in inches) x Width (in inches) x Height (in inches)]/166

                Levels of Service. DoD allowed carriers to define the levels of
service in international air tenders rather than providing a standard definition. For
domestic air tenders, Publication No. 5 provides a standard definition of levels of
service, including priority, overnight, second-day, and deferred service.
However, all 12 of the international air tenders reviewed defined the levels of
service differently than Publication No. 5. In addition, the computation of transit
times varied. One tender computed the transit time from booking to delivery.
Another tender computed the transit time from pickup to delivery. Further, as
shown in Table 3, some tenders lacked or had incomplete definitions of the levels
of service.


             Table 3. Definitions of Levels of Service per Tenders

               Definition of Levels of Service             Number of Tenders

    No definition                                                   1
    Complete                                                        2
    Incomplete because no definition of delivery time,
       transit time, or locations where delivery
       would be made by noon versus 5 p.m.                          9


               The lack of defined levels of service is contrary to MRM No. 15.
AMC addressed that issue in Draft Publication No. 5, which will require a
standard definition of levels of service, including next-flight-out, express,
standard, and deferred service.

                Types of Accessorial Charges. DoD allowed carriers to define
the types of accessorial charges in international air tenders rather than providing
standard definitions. For domestic air tenders, Publication No. 5 provides
standard accessorial charges. However, the 12 international air tenders defined
accessorial services differently than Publication No. 5. Accessorial charges that
are not allowed for domestic tenders but which were offered in the international
air tenders included:

                       •    storage fees,

                       •    special delivery surcharges,

                       •    airway bill preparation fee charges,



                                     11
                      •    multi-piece shipment surcharge,

                      •    carrier-incurred expenses, and

                      •    pickup and delivery surcharge for locations more than
                           25 miles from the airport selected by the carrier.

               The lack of standard definitions of accessorial charges is contrary
to MRM No. 15. AMC addressed that issue in Draft Publication No. 5, which
will provide standard accessorial charges for international air tenders.

               Exceptions to Delivery Commitments. Carriers determined the
exceptions to the delivery commitments contained in the international air tenders.
For domestic tenders, Publication No. 5 provides that carrier delivery
commitments apply except in limited circumstances, such as acts of God, acts of
Governments, floods, fires, epidemics, quarantine restrictions, strikes, freight
embargoes, and unusually severe weather. However, 10 of the 12 international air
tenders reviewed defined exceptions to delivery commitments differently than
Publication No. 5, as shown in Table 4.


         Table 4. Exceptions to Delivery Commitments per Tenders

               Exceptions to Delivery Commitments             No. of Tenders

       No exceptions                                                6
       Similar to Publication No. 5                                 2
       More exceptions than allowed by Publication No. 5            4


              Exceptions to delivery commitments that are not allowed for
domestic tenders but which were in international air freight tenders included:

                      •    non-compliance with delivery or special instructions
                           provided by the shipper,

                      •    any weather conditions,

                      •    mechanical delay of aircraft or other equipment,

                      •    perils of the air, and

                      •    loss or suspension of license.

                The lack of defined exceptions to delivery commitments is
contrary to MRM No. 15. AMC addressed that issue in Draft Publication No. 5,
which will provide limited exceptions to delivery commitments. The exceptions
include acts of God or of the public enemy, acts of the Government, fires, floods,
epidemics, quarantine restrictions, strikes, freight embargoes, and unusually
severe weather.



                                    12
                Unique Publications Governing Tenders. DoD allowed carrier-
unique publications to govern international air tenders rather than a standard DoD
publication. In addition, carriers were not required to attach their unique
publications to the international air tenders. Therefore, unless the carrier-unique
publications were obtained from the carriers, transportation officers did not have
the necessary information to perform a best value analysis. For domestic tenders,
Publication No. 5 and Publication No. 364-C provide standard rules and state that
carrier-unique publications are not allowed. However, 9 of the 12 international
air tenders reviewed referenced carrier-unique publications, as shown in Table 5.
One of the nine tenders stated that another tender was the governing publication.7


                Table 5. Carrier-Unique Publications per Tenders

          Governed by Carrier-Unique Publication                     Number of Tenders
    No                                                                         3
    Yes, but publication not attached to tender                                7
    Yes                                                                        2


                Allowing carrier-unique publications to govern international air
tenders is contrary to MRM No. 15. AMC addressed that issue in Draft
Publication No. 5, which will provide that international air tenders may not be
made subject to any carrier-unique publications.

                Delivery Zones. Carriers, rather than DoD, defined delivery
zones. Delivery zones were included in 7 of the 12 tenders reviewed. However,
each tender defined delivery zones differently. There were from 5 to 12 zones
defined in the 7 tenders. For example, China was listed as zone nine, zone four,
and twice as zone F. The Czech Republic was listed as zone four, zone five,
zone J, and twice as zone F. Two of the tenders did not deliver to those areas and
a third did not deliver to China.

                The lack of standard delivery zones could make it difficult for
transportation officers to perform a best value analysis. MTMC addressed that
issue in Draft Form 364-R, which will provide for standard international delivery
zones.

        Best Value Analysis of Domestic Air Shipments. Transportation
officers did not have the necessary tools to perform a best value analysis of
domestic air tenders before selecting carriers. Of the 12 tenders reviewed,
3 tenders included domestic rates. Because domestic rates were included in
international air tenders, the domestic rates were not stored in DoD transportation
routing systems. Therefore, the automatic computation of estimated costs for
domestic shipments would exclude the domestic rates included in international air
tenders. The three tenders that included domestic rates also included security

7
Although we reviewed the tender that was the governing publication of one tender in our sample
of 12 tenders, we did not include the governing publication in counting tenders in our sample.



                                         13
services.8 An AMC official stated that the transportation routing system could
not accept information on security services; therefore, a decision was made to
allow the three tenders to be filed on Optional Form 280, rather than on
Form 364-R, as required by Publication No. 5. Of the three tenders that included
domestic rates, one included shipments within the United States, including Alaska
and Hawaii. AMC considered tenders that offered both domestic and
international air transportation to be hybrid tenders. AMC allowed hybrid tenders
to be filed as international tenders rather than requiring air carriers to submit
domestic rates in domestic tenders and international rates in international tenders.

Visibility Over the Usage of International Air Tenders. DoD lacked adequate
visibility over the usage of international air tenders. Usage data was not available
from DoD systems and only some carriers were willing to provide data on usage
of international tenders.

        Data From DoD Systems on Usage of International Air Tenders.
AMC, MTMC, the U.S. European Command, the U.S. Pacific Command,
USTRANSCOM, and the Services were unable to provide data on usage of
international air tenders. According to officials from the Services, data on
international air tenders is captured in various computer systems; however, the
officials stated that the data was not complete. A USTRANSCOM official
suggested that we could obtain the data from each of the more than 500 DoD
transportation offices. However, given the number of individual transportation
offices, that method of data collection would have been inefficient and
ineffective. In addition, it would not have provided DoD any lasting visibility. In
contrast, data on domestic tender usage was available from DoD transportation
routing systems.

        Data From Carriers’ Records on Usage of International Air Tenders.
In January 2000, June 2001, and July 2001, AMC sent memorandums to the air
carriers requesting information on the usage of international air tenders. The
information requested included origin, destination, weight, number of pieces, and
cost. However, AMC was only partially successful in obtaining data from
carriers. In contrast, for other transportation requirements, AMC requires carriers
to provide usage data as a condition of using the carriers’ services. For example,
the terms of the GSA small package contracts and Worldwide Express contracts
require the carriers to provide detailed monthly reports.

Tenders From Qualified Carriers. Some international air tenders were not
from qualified Civil Reserve Air Fleet (CRAF) carriers. CRAF carriers augment
DoD airlift capability with civil aircraft, aircrews, and support structure during
times of national emergency. To provide incentives for carriers to commit aircraft
to the CRAF program and to assure DoD of adequate airlift reserves, AMC
awards peacetime airlift contracts to the air carriers that offer aircraft to the
CRAF program. The peacetime contracts are awarded on a fiscal year basis. In
addition, AMC requires that international air tenders be from CRAF carriers. Of
the 12 carriers with international air tenders, 10 were qualified CRAF carriers.

8
    Security services include constant surveillance over a shipment during movement and records
    showing the chain of custody.



                                             14
Two international air tenders, one effective starting in February 2002 and one in
May 2002, were not from FY 2002 qualified CRAF carriers. AMC officials
stated one carrier’s parent was a qualified CRAF carrier in FY 2002. However,
AMC prohibited another CRAF carrier from transferring an interest in an
international air tender to a firm that was not a qualified CRAF carrier, stating
that interests in contracts generally cannot be transferred. Therefore, using
similar logic, a tender from a subsidiary that is not a qualified CRAF carrier
should not be approved, even if the parent is a qualified CRAF carrier.

Competition With Contracts and Channel Flights. International air tenders
competed with mandatory services provided by Federal Acquisition Regulation-
based contracts and channel flights. The Federal Acquisition Regulation-based
contracts are the GSA small package and Worldwide Express contracts.

        Competition With Worldwide Express Contracts. One international air
tender competed with mandatory services provided by Worldwide Express
contracts. DoD mandates the use of Worldwide Express contracts for air
shipments weighing 150 pounds or less. The Worldwide Express contractors
agree to provide DoD transportation services over all routes available to
commercial customers. However, AMC officials stated that, based on
information in the tenders and Worldwide Express contracts, they could not
determine whether the tenders competed with Worldwide Express contracts
because the contracts did not include a listing of all transportation routes available
to commercial customers. For example, the Worldwide Express contracts
included a listing of routes from the United States to international locations and
from Germany, Japan, and Korea to the United States. But the contracts did not
include a listing of routes between international locations and from international
locations other than Germany, Japan, and Korea to the United States. To obtain
transportation routes available to commercial customers, but not listed in the
contracts, transportation officers had to call a toll-free telephone number.
Comparing the two tenders with information obtained by calling the toll-free
telephone number showed that the tenders potentially competed with the
Worldwide Express contracts.

       One international air tender, which was for shipments from Turkey to
worldwide locations, including Egypt, did not compete with Worldwide Express
contracts. The tender applied to shipments up to 70 kilograms (154.322 pounds).
A Worldwide Express contractor offered commercial transportation from Turkey
to Egypt. The transit time for the contractor’s commercial service was 6 days,
compared with a 3-day transit time offered in the tender. Therefore, we
concluded that the tender did not compete with the Worldwide Express contract.

        Another international air tender, which included shipments between
worldwide locations, including between Germany and Egypt, competed with a
Worldwide Express contract. The tender applied to shipments weighing
1 kilogram (2.2046 pounds) and over. A Worldwide Express contractor offered
commercial transportation from Germany to Egypt. Therefore, the tender, which
included a door-to-door transit time of 3 to 5 days, competed with a Worldwide
Express contract, which offered a 3-day transit time.




                                     15
             Competition With GSA Small Package Contracts. International air
     tenders competed with mandatory services provided by GSA small package
     contracts. The GSA small package contracts are considered the best value to the
     Government, making DoD a mandatory user of the contracts. Of the
     12 international air tenders reviewed, 1 tender competed with the GSA small
     package contracts. The tender provided service within the United States,
     including Alaska and Hawaii. That tender was for shipments of all weights and
     included overnight and second-day service. The GSA contracts also provided
     overnight and second-day service within the United States, including Alaska and
     Hawaii. AMC officials indicated that the tender involved gray areas because
     Alaska and Hawaii are considered domestic locations for the GSA small package
     contracts but international locations for air tenders.

              Competition With Daily Channel Flights. An international air tender
     competed with mandatory services provided by channel flights for one of the six
     locations with daily flights. In June 2001, AMC notified air carriers of an
     initiative to return DoD freight to the channel airlift system. In November 2001,
     AMC notified air carriers that the six locations served by daily channel flights
     (the six channel routes) must be eliminated from international air tenders by
     December 15, 2001. However, of the 12 international air tenders reviewed,
     1 tender competed with a channel route. That tender included door-to-door
     service from Florida, Georgia, and Alabama to worldwide locations, including
     Riyadh, Saudi Arabia. Riyadh is less than 50 miles from Prince Sultan Air Base,
     which is a reasonable delivery distance for a carrier that offers door-to-door
     service. Therefore, we concluded that the tender competed with one of the six
     channel routes. AMC officials stated that the tender did not compete with the
     channel route because the channel route offered service to Prince Sultan Air Base
     and the tender offered door-to-door service to Riyadh.

     Implementation of a Single Automated Billing and Payment System. DoD
     could more fully implement a single automated billing and payment process in
     accordance with MRM No. 15. Shipments made via domestic tenders must be
     billed through PowerTrack but shipments made via international tenders are not
     required to use PowerTrack. When PowerTrack is not used, carriers submit bills
     to the Defense Finance and Accounting Service. One of the goals of MRM
     No. 15 is to create a unified billing process for all transportation modes, which is
     expected to create annual savings from e-commerce efficiencies and a reduction
     in Defense Finance and Accounting Service processing workload. Although
     PowerTrack cannot be used as the single billing process until international
     transportation officers receive PowerTrack, PowerTrack can and should be used
     for shipments originating in the United States.


Requirements for International Air Freight Tenders
     AMC had not standardized international air tenders. AMC also had not required
     that tender rate information be entered into DoD transportation routing systems or
     required carriers to provide data on tender usage. In addition, AMC had not
     adequately reviewed international air tenders before approval. Further, AMC had



                                          16
not required that the PowerTrack automated payment system be used for carrier
billings and payments.

Standardizing International Air Tenders. AMC had not standardized
international air tenders, although AMC and MTMC did issue guidance
standardizing other transportation modes. There was no guidance in effect on
international air tenders and, although AMC and MTMC have taken initial steps
to standardize international air tenders, significant progress still needed to be
made.

        Responsibilities for Standardizing International Air Tenders. AMC is
responsible for standardizing international air tenders. MTMC was involved in
the standardization efforts because a MTMC transportation routing system would
need modification to accept data on international air tenders. In addition, to
standardize international air tenders, MTMC needed to revise Publication
No. 364-C and Form 364-R. Further, MTMC, due to experience in writing
publications for other modes of transportation, assisted AMC in writing Draft
Publication No. 5, which included proposed rules for standardizing international
air tenders.

        Standardization of Other Modes of Transportation. AMC and MTMC
standardized tenders for other transportation modes. Although carriers had
reservations with the standardization efforts, AMC and MTMC were able to
overcome carriers’ concerns and standardize domestic air, motor, pipeline, rail,
tank-truck, and all modes of guaranteed traffic. AMC officials stated that
domestic air tenders were standardized in 1999. The standardization protected the
interests of DoD by imposing standard rules and limitations. Carriers filed
standardized air tenders on Form 364-R, which was governed by Publication
No. 364-C. In addition, standard tenders were also governed by a separate
publication based on the mode of transportation. For example, Publication No. 5
governs domestic air tenders.

        Guidance for International Air Tenders. AMC had not standardized
international air tenders requirements. Although carriers had to file international
air tenders on Optional Form 280, there was no DoD publication that governed
Optional Form 280 or the terms and conditions contained in attachments to
Optional Form 280. Therefore, carriers were free to impose their own rules and
limitations on attachments to Optional Form 280. International air tenders could
also be subject to carrier-unique publications, which carriers referenced in the
tenders but were not required to attach to the tenders. In order to protect the
interests of DoD, AMC should impose standard rules and limitations on
international air tenders.

        Steps Taken To Standardize International Air Tenders. AMC and
MTMC have taken steps to standardize international air tenders. According to an
AMC official, AMC, in conjunction with MTMC, developed Draft Publication
No. 5, which included standard rules and limitations for international air tenders.
Draft Publication No. 5 was posted to the MTMC Web site on March 12, 2001,
and air carriers were given 60 days to comment. MTMC also revised Form 364-R
to include international air tenders, which was published on its Web site on
July 2, 2001. In August 2001, AMC and MTMC met with carriers to hear


                                     17
carriers’ concerns about the standardization of international air tenders, including
the definition of the levels of service, guidance on oversized freight, and
assessorial charges for next-flight-out service. According to AMC officials,
delays occurred in standardizing international air tenders because:

       •   higher priority projects, such as implementing PowerTrack and a Web-
           based transportation routing system, took precedence;

       •   approval from the American National Standards Institute for computer
           codes for international air tenders had to be obtained; and

       •   rating international shipments, accommodating foreign currency, and
           developing international codes similar to ZIP Codes were problematic.

AMC officials also stated that they wanted the transportation routing system
owned by MTMC to be modified before international air tenders were
standardized. However, as a first step AMC should standardize international air
tenders so comparable information would be available. The comparable
information can be made available later electronically through a MTMC
transportation routing system.

        Progress Toward Standardizing International Air Tenders.
Significant progress was still needed to standardize international air tenders. In
May 2002, a MTMC official stated he expected international air tenders to be
standardized in FY 2002; however, as of August 2002, MTMC and AMC officials
had not met for a year. AMC, in coordination with MTMC, should protect the
interests of DoD by standardizing international air tenders. Necessary actions
include finalizing Draft Publication No. 5 and Draft Form 364-R. In addition,
MTMC needs to revise Publication No. 364-C.

Requiring Tender Rate Information in Electronic Format. AMC had not
required that information on tender rates and accessorials (tender rate
information) be entered into DoD transportation routing systems. In addition,
AMC had not required carriers to provide data on international air tender usage.

        Entering Data Into DoD Transportation Routing Systems. AMC had
not required that air tender rate information be entered into DoD transportation
routing systems for international tenders and tenders with domestic security
services. In contrast, AMC required complete tender rate information to be
entered electronically for other domestic air tenders. Transportation officers
generally had electronic access to domestic air tender information, including rates
and other provisions. Because the domestic air tender information was electronic,
DoD transportation routing systems could automatically determine which tenders
could provide the needed transportation services. In addition, DoD transportation
routing systems could provide transportation officers a listing of domestic air
tenders and estimated costs for use in selecting a carrier. In contrast, for
international air tenders and tenders with domestic security services, the
information entered electronically into DoD transportation routing system was the
carrier’s name, address, point of contact, standard carrier alpha code, tender
number, tender effective date, and tender expiration data. According to AMC
officials, for international air tenders and tenders with domestic security services,


                                     18
transportation officers had to obtain estimated costs from either the air carriers or
a manual computation based on paper copies of the tenders.

        AMC officials stated there are impediments to requiring electronic input
of information on international air tender rates and tenders with domestic security
services. AMC officials stated that before international air tender rate
information could be input electronically, tenders had to be standardized. In
addition, a MTMC-owned transportation routing system needed to be modified to
accept standard information on international air tenders and information on
domestic tenders with security services. In August 2002, MTMC notified AMC
that the MTMC transportation routing system was scheduled for replacement and
that funding for changes to that system was frozen. Therefore, international air
tender rate information and information on domestic tenders with security
services could not be electronically available until the replacement system was
selected and implemented.

        Pending system replacement, AMC could still take steps to ensure tender
rates are available electronically. For example, AMC posted the GSA small
package and Worldwide Express contracts to its Web site. Likewise, AMC could
post the international air tenders and domestic tenders with security services. The
Web site could contain an index of the tenders by geographic location to aid
transportation officers in finding tenders that meet their transportation needs.
That would allow DoD to come closer to meeting the MRM No. 15 goal of
reducing the reliance on paper processes and increasing the reliance on electronic
commerce. Once MTMC implements its replacement transportation routing
system, international air tender rate information and information on domestic
tenders with security services can be entered and made available to transportation
officers in an electronic format. However, MTMC needs to ensure that
information can be entered electronically into the replacement system.

        Requiring Carriers to Provide Data on Tender Usage. AMC had not
required carriers to provide data on tender usage. Specifically, AMC did not
require that the provisions of international air tenders include a requirement that
the carriers provide periodic data on usage. In contrast, for other transportation
requirements, AMC requires carriers to provide usage data as a condition of using
the carriers’ services. For example, the terms of the GSA small package and
Worldwide Express contracts require the carriers to provide detailed monthly
reports. Pending replacement of the MTMC transportation routing system, AMC
should require that the provisions of international air tenders include a
requirement that the carriers provide periodic data on usage.

Reviewing International Air Tenders Before Approval. AMC had not
adequately reviewed international air tenders before approval. AMC should
improve its review process to ensure international air tenders comply with the
existing criteria. In addition, AMC should develop additional criteria for
reviewing international air tenders to ensure that international air tenders do not
compete with mandatory transportation services and do not include domestic
rates.

        Complying With Existing Criteria. AMC had not adequately reviewed
international air tenders before approval to ensure that the tenders complied with


                                     19
the existing criteria. Specifically, AMC did not ensure that international air
tenders complied with both the international and domestic criteria.

                International Criteria. AMC did not ensure that international air
tenders complied with the international criteria. AMC officials stated that
international air tenders were reviewed to ensure that the tenders complied with
the following three criteria.

                       •   Tenders did not compete with Worldwide Express
                           contracts.

                       •   Tenders did not compete with the six channel routes
                           that have daily flights (Frankfurt, Inchon, Kuwait,
                           Prince Sultan Air Base, Ramstein Air Base, and Seoul).

                       •   Tenders were from a qualified CRAF carrier.

However, AMC approved tenders that competed with Worldwide Express
contracts and the six channel routes. AMC also approved tenders from carriers
that were not qualified CRAF carriers. Therefore, AMC needed to improve its
review process. Specifically, AMC should adequately review international air
tenders before approval to ensure the tenders do not compete with Worldwide
Express contracts. AMC should also review approved tenders and request
revision of all tenders that compete with Worldwide Express contracts. In
addition, AMC should adequately review international air tenders before approval
to ensure the tenders do not compete with the six channel routes. AMC should
also review approved tenders and revoke all tenders that compete with the six
channel routes. Further, AMC should adequately review international air tenders
before approval to ensure the carriers are qualified CRAF carriers. AMC should
revoke the tenders when a carrier is no longer a qualified CRAF carrier. At a
minimum, AMC should review approved tenders each fiscal year to ensure all
international air tenders are from qualified CRAF carriers.

                Domestic Criteria. AMC did not ensure that international air
tenders complied with domestic criteria. Publication No. 5 requires that tenders
that offer transportation within the continental United States be filed on
Form 364-R. However, AMC approved 3 of the 12 international tenders
reviewed even though the tenders were filed on Optional Form 280 and included
domestic rates. One tender provided for transportation within the continental
United States. AMC should have required that tender to be filed on Form 364-R,
as required by Publication. No. 5. Two tenders provided for transportation within
the continental United States and between the continental United States and
international locations, including Alaska, Hawaii, and Canada. For example, one
tender provided for transportation:

                       •   within the continental United States,

                       •   within Canada, and

                       •   between the continental United States and Canada.



                                     20
     AMC should not have approved the two tenders that included both domestic and
     international rates. AMC should have required the domestic portion to be filed on
     Form 364-R, as required by Publication No. 5, and required the international
     portion to be filed on Optional Form 280, in accordance with AMC criteria.

             Developing Additional Criteria. AMC criteria did not include ensuring
     that international air tenders do not compete with the GSA small package
     contracts and do not include domestic rates. Specifically, AMC should
     adequately review international air tenders before approval to ensure the tenders
     do not compete with the GSA small package contracts. AMC should also review
     approved tenders and revoke all tenders that compete with the GSA small
     package contracts. In addition, AMC should review international air tenders
     before approval to ensure the tenders do not include domestic rates. AMC should
     also review approved international air tenders and revoke all tenders that include
     domestic rates.

     Requiring the Use of PowerTrack for Billing and Payments. AMC had not
     required that the PowerTrack automated payment system be used for carrier
     billings and payments to the extent possible. PowerTrack has been deployed to
     transportation officers in the United States and, therefore, could be used for all
     shipments originating in the United States. AMC should require carriers to use
     PowerTrack for all international shipments originating in the United States.

     AMC should require carriers to use PowerTrack as PowerTrack is deployed to
     transportation officers outside the United States. For example, when PowerTrack
     is deployed to transportation officers in Europe, AMC should require carriers to
     use PowerTrack for all shipments originating in Europe; when PowerTrack is
     deployed to transportation officers in Japan, AMC should require carriers to use
     PowerTrack for all shipments originating in Japan.


Costs and Benefits
     DoD may be incurring unnecessary transportation and other costs. In addition,
     DoD may not have effectively planned and used Federal Acquisition Regulation-
     based contracting and channel flights as alternatives to international air tenders
     and may not be achieving the expected benefits of MRM No. 15.

     Transportation and Other Costs. For domestic air tenders, Publication No. 5
     protected the interests of DoD by imposing standard rules and limitations.
     However, for international air tenders there was no guidance that protected the
     interests of DoD. For example, DoD may be incurring unnecessary transportation
     and other costs because carriers were not required to:

            •   aggregate total shipments;

            •   be liable for all loss, damage, undue delay, or missed deliveries unless
                caused by acts of God;

            •   bill for the actual level of service performed;


                                          21
       •   bill at the lowest rate when a specific level of service was not
           requested;

       •   certify that the shipment was delivered;

       •   determine mileage based on the shortest highway distance as
           determined by a standard publication; and

       •   report astray freight.

       Aggregating Total Shipments. DoD may be incurring unnecessary
transportation costs because AMC did not require carriers to aggregate total
shipments for international tenders and bill based on the aggregate weight.
However, for domestic air tenders, Publication No. 5 requires that carriers
aggregate total shipments and bill based on the aggregate weight. Publication
No. 5 requires aggregation for all shipments:

               •   from the same origin,

               •   to the same destination,

               •   on the same day, and

               •   for the same level of service.

        Of the 12 international tenders reviewed, 10 did not address aggregating
shipments. One tender addressed aggregating shipments but the method for
billing for aggregate shipments was unclear. Another tender addressed
aggregating shipments but imposed fees and other limitations not allowed by
Publication No. 5.

        Aggregating shipments reduces transportation costs because the shipping
costs per pound generally decrease as the weight increases. For example, based
on one tender’s rates, 10 shipments of 500 pounds each from Michigan to Ottawa,
Canada, would cost $15,912 without aggregation; if aggregated, the cost would be
$11,934.
        AMC addressed that issue in Draft Publication No. 5, which will require
the carrier to aggregate all shipments from the same origin point to the same
destination consignee, for the same level of service tendered at the same time on
the same day. Weight will be adjusted and billed at the applicable rate for the
total weight of those shipments.

        Carrier Liability. DoD may be incurring other costs because AMC did
not require carriers to be liable for shipments. For domestic tenders, Publication
No. 5 requires that carriers be liable for all loss, damage, undue delay, or missed
deliveries unless caused by acts of God. However, for 6 of the 12 tenders
reviewed, the carriers imposed greater limitations to liability than allowed by
Publication No. 5.




                                     22
For example, the international tenders stated that the carriers were not liable for:

                 •   compliance or noncompliance with delivery instructions,

                 •   weather conditions,

                 •   mechanical delay of aircraft,

                 •   perils of the air,

                 •   loss or suspension of license,

                 •   any circumstances beyond the control of the carrier, and

                 •   consequential, incidental, or special damages.

        AMC addressed that issue in Draft Publication No. 5, which will require
carriers to be liable except in limited circumstances.

        Billing for Services Performed. DoD may be incurring unnecessary
transportation costs because, for international air tenders, AMC did not require
carriers to bill for the actual level of service performed. For domestic air tenders,
Publications No. 5 requires that when a carrier has different levels of service at
varying rates, the carrier will bill for the actual service performed. For example,
for a domestic tender with both overnight and second-day service, if the
transportation officer requested overnight service but the carrier did not deliver
until the second day, AMC required the carrier to bill for second-day service.
However, for 7 of the 12 tenders reviewed, the tenders had multiple levels of
service and rates and all 7 tenders did not address billing for the actual service
performed. For example, for one of the tenders reviewed, if the transportation
officer requested overnight service for a 500-pound shipment but the carrier did
not deliver until the second day, the carrier could bill $1,555 for the overnight
service. However, if the carrier had to bill for the actual second-day service, as
provided by Publication No. 5, the carrier could only bill $1,025.

        AMC addressed that issue in Draft Publication No. 5, which will require
carriers to bill for the actual level of service performed.

        AMC imposed billing limits for GSA small package and Worldwide
Express contracts. Those contracts provide that if the delivery is late, the
transportation services are free. However, only 2 of the 12 international air
tenders reviewed had a provision for free transportation services when a delivery
was late, in which case the tenders required that DoD file a claim for a refund.
One tender required that the delay be a controllable event,9 and the other tender
did not allow for refunds for discounted shipments.

         Billing at Lowest Rate. DoD may be incurring unnecessary
transportation costs because when a specific level of service was not requested in
the bill of lading, AMC did not require carriers to bill at the lowest rate in the
9
The tender did not define a controllable event.



                                           23
international air tender. For domestic tenders, carriers are required to bill at the
lowest rate in the tender if a specific level of service is not requested. For
example, if a domestic tender has both overnight and second-day service and the
bill of lading does not specify the service requested, AMC requires the carrier to
bill for second-day service. Of the 12 international air tenders reviewed,
7 offered multiple levels of service and rates. However, of the seven tenders that
offered multiple levels of service and rates, five did not contain a provision
requiring carriers to bill at the lowest rate if a specific level of service was not
requested. In addition, the remaining two tenders specified that the highest level
of service and rate will apply if no level of service is specified. For example, one
tender stated that when the shipper does not indicate the type of service requested,
the shipment will be rated and routed at “next-flight-out service.” The
next-flight-out service costs significantly more than the general service offered in
the tender. For example, a 1,000-pound shipment sent from the United States to
Pakistan would cost $9,760 for next-flight-out service versus $4,740 for general
service.

        AMC addressed that issue in Draft Publication No. 5, which will require
carriers to bill at the lowest rate in the international air tender if a specific level of
service is not requested.

        Certifying Delivery. DoD may be incurring unnecessary transportation
costs because AMC did not require carriers to certify that the shipment was
delivered before DoD paid the transportation costs. Publication No. 5 requires
that carriers certify in PowerTrack that the shipment was delivered before DoD
will pay the transportation costs. None of the 12 tenders reviewed required
certification of delivery before payment. In addition, three generally required
DoD to prepay the transportation costs. Another tender required that DoD pay the
transportation costs whether or not the freight arrives at the destination. As a
result, DoD may be paying for transportation of shipments that never reach the
intended destination.

        The lack of a requirement for carriers to certify that a shipment was
delivered is contrary to MRM No. 15. One of the goals of MRM No. 15 is to
improve data accuracy. Without requiring delivery certification, accurate data is
not readily available to determine whether transportation charges are valid. In
addition, not requiring the certification to be completed in PowerTrack is contrary
to the MRM No. 15 goal of increasing the use of electronic commerce.

        AMC addressed that issue in Draft Publication No. 5, which will require
carriers to certify delivery before DoD will pay the transportation costs. In
addition, Draft Publication No. 5 will require that the certification be made
electronically using PowerTrack. Any certification of delivery before actual
delivery could result in the disqualification or disbarment of the carrier from
Government transportation programs and procurements.

        Determining Mileage. DoD may be incurring unnecessary transportation
costs because AMC did not require carriers to determine mileage based on the
shortest highway distance using a standard publication. For domestic air tenders,
Publication No. 5 requires the use of a standard publication to determine mileage.
Table 6 shows the provisions for determining mileage in the tenders reviewed.


                                       24
The provisions in two of the tenders were unclear. One tender stated that beyond
charges10 would be based on weight and location but did not state how the
charges would be computed or whether the charges would be based on mileage.
Another tender stated beyond charges would apply but did not indicate how the
charges would be computed.


                    Table 6. Determining Mileage per Tenders

            Tender Provision for Determining Mileage                       No. of Tenders

     No provision; no mileage-based charges in tender                             5
     No provision; mileage-based accessorial charges in tender                    1
     Mileage determined by standard publication                                   4
     Provisions unclear                                                           2


        Not requiring the use of a standard publication to determine mileage is
contrary to MRM No. 15. One of the goals of MRM No. 15 is to develop a single
documentation and billing process for all modes of transportation. However,
without a standard publication to determine the shortest highway distance, a
single documentation and billing process cannot be developed. Not requiring the
use of a standard publication to determine mileage is also contrary to the MRM
No. 15 goal of improving data accuracy.

        AMC addressed that issue in Draft Publication No. 5, which will require
the use of the Defense Table of Official Distances to determine the shortest
highway distance.

        Reporting Astray Freight. DoD may be incurring unnecessary costs
because AMC did not require carriers to report astray freight, as required for
domestic air tenders by Publication No. 5. MTMC is the program manager for
the astray freight program and identifies astray freight. A MTMC report for
January through April 2002 identified about $6.5 million of astray freight. The
international air tenders do not require carriers to report astray freight, which
could cause DoD to incur millions of dollars in lost freight each year. For
example, MTMC reported no astray freight at locations outside the United States.
In addition, some tenders provided that the carriers can sell undelivered DoD
freight after a certain time had elapsed.

        AMC addressed that issue in Draft Publication No. 5, which will require
carriers to telephone the MTMC Deployment Support Command at listed toll-free
numbers to report astray freight.

Planning Alternatives to International Air Freight Tenders. DoD may not
have effectively planned Federal Acquisition Regulation-based contracting and
channel flights as alternatives to international air freight tenders.

10
 Beyond charges are charges for pickup and delivery services to and from airports when the
 origin and destination locations are beyond a certain distance from the airports.



                                         25
        Federal Acquisition Regulation-Based Contracts. AMC had contracted
with CRAF carriers for less than plane-load freight transportation on scheduled
flights. In addition, AMC had contracted with CRAF carriers for full plane-load
freight transportation. However, given the lack of visibility over the usage of
international air tenders, DoD did not know whether additional contracts should
be planned for international shipments.

         Channel Flights. In order to establish or change the frequency of channel
flights, it is necessary to know the estimated amount of freight that requires air
transportation. However, without data on the usage of international tenders, DoD
did not know the amount of freight transported via international air tenders.
Therefore, DoD could not accurately determine whether channel flights needed to
be established or changed. U.S. European Command officials stated that there
was only limited usage of international air tenders because of the channel routes
and Worldwide Express contracts. U.S. Pacific Command officials stated that
they know the location of U.S. Armed Forces in the Pacific Command theater and
ensure that channel flights exist in order to sustain those forces. However,
without data on the usage of international tenders there was no assurance that
channel flights had been adequately planned.

Using Mandatory Transportation Services. DoD may not have effectively
used Federal Acquisition Regulation-based contracting and channel flights as
alternatives to international air freight tenders.

        Federal Acquisition Regulation-Based Contracting. Use of the
Worldwide Express contracts was mandatory for air shipments weighing
150 pounds or less. Services provided under the Worldwide Express contracts
covered shipments from domestic11 to international locations,12 from international
to domestic locations, and from international to international locations. However,
AMC had approved an international air tender that offered services covered under
the Worldwide Express contracts. Therefore, DoD may not have used existing
contracts according to the contractual requirements. However, because no data
was available on the usage of tenders, we could not determine whether
international tenders were actually used to make shipments required to be made
under Federal Acquisition Regulation-based contracts.

        Channel Flights. AMC imposed restrictions on international tenders that
competed with six channel routes. The six channel routes were used to maintain
aircrew training, which is crucial in meeting wartime readiness requirements.
Use of the routes was mandatory for air shipments weighing over 150 pounds.
However, AMC approved a tender that competed with one of the six channel
routes. Therefore, DoD may not have used the channel route according to AMC
requirements. However, because no data was available on the usage of tenders,
we could not determine whether international tenders were used to make
shipments that were required to be made using channel flights.


11
     The Worldwide Express contracts define domestic to include Alaska, Hawaii, and Puerto Rico.
12
 The Worldwide Express contracts define international to exclude Alaska, Hawaii, and Puerto
 Rico.



                                            26
    Achieving the Expected Benefits of MRM No. 15. DoD may not be achieving
    the expected benefits of MRM No. 15. One of the goals of MRM No. 15 is to
    create a unified billing process for all transportation modes. DoD was expected to
    achieve annual savings from e-commerce efficiencies and a reduction in Defense
    Finance and Accounting Service processing workload. However, without more
    fully using PowerTrack, DoD will not achieve those expected benefits. Although
    PowerTrack cannot be used as the single billing process until international
    transportation officers receive PowerTrack, DoD could receive additional benefits
    if PowerTrack was used to the maximum extent possible. Increased usage of
    PowerTrack could also help DoD achieve the expected benefits of reducing
    infrastructure costs and improving data accuracy.


Management Comments on the Finding and Audit Response
    USTRANSCOM Comments. USTRANSCOM stated that although the audit
    report discusses 12 international air tenders, 6 of the 12 tenders selected for
    review were domestic tenders. As a result, the audit report reflects inaccurate
    comments relating to international tenders.

    Audit Response. We selected our sample of 12 tenders from AMC files of
    international air tenders. We added a more detailed discussion of our sample
    selection to the report to clarify that the tenders were considered to be
    international air tenders by AMC. The 12 tenders were filed on Optional
    Form 280, which is the form for international air tenders. In contrast, Publication
    No. 5 requires domestic air tenders to be filed on Form 364-R. We also added
    Table 1, which shows the locations served by the 12 tenders in our sample.

    The USTRANSCOM comments indicated that the first six tenders listed in
    Table 1 are domestic tenders. However, five of those six tenders offered
    international service not covered by Publication No. 5, which governs service
    “within the contiguous United States,” and excludes service to Alaska, Hawaii,
    and Puerto Rico. Therefore, those tenders, which offered service outside the
    continental United States, including service to Alaska, Hawaii, Puerto Rico, or
    Canada, are international tenders. In addition, because AMC had allowed all
    12 of the tenders to be filed on Optional Form 280 and had included them in the
    AMC files of international air tenders, it was appropriate to include all 12 tenders
    in our sample.

    The first tender listed in Table 1 offered only domestic service. Therefore, the
    tender should have been filed on Form 364-R to comply with Publication No. 5.
    However, the tender was filed on Optional Form 280 and was included in the
    AMC files as an international air tender. Therefore, it was appropriately included
    in our sample.

    The second and third tenders listed in Table 1 offered both domestic and
    international service. Therefore, AMC should have required the carriers to file
    the domestic service on Form 364-R and the international service on Optional
    Form 280. However, because the tenders were filed on Optional Form 280 and



                                         27
    included by AMC as international air tenders, they were appropriately included in
    our sample.

    The remaining nine tenders offered only international service and were
    appropriately filed on Optional Form 280.


Recommendations, Management Comments, and Audit
 Response
    Revised and Added Recommendations. As a result of management comments,
    we revised draft Recommendations 1.e. and 1.f. to require that the inappropriate
    tenders be revoked instead of revised and modified the finding text accordingly.
    We also added Recommendation 1.j. to require that AMC disapprove
    international tenders that include domestic rates and Recommendations 1.k. and
    2.d. to require that additional information on tenders be entered into the new
    transportation routing system. We request that management provide comments
    on the added recommendations in response to the final report.

    1. We recommend that the Commander, Air Mobility Command:

           a. Establish as a priority standard rules and limitations for
    international air freight tenders by finalizing the draft “AMC Freight Traffic
    Rules Publication No. 5” and including the following draft criteria in the
    final publication:

                  (1) Standard formula for computing dimensional weight.

                  (2) Standard definitions of levels of service, including
    next-flight-out, express, standard, and deferred service.

                  (3) Standard accessorial charges allowed.

                  (4) Limited exceptions to delivery commitments, such as acts
    of God or of the public enemy, acts of the Government, fires, floods,
    epidemics, quarantine restrictions, strikes, freight embargoes, and unusually
    severe weather.

                  (5) Prohibition of carrier-unique publications governing
    tenders.

                  (6) Standard delivery zones.

                   (7) Requirement that shipments from the same origin point to
    the same destination consignee, for the same level of service tendered at the
    same time on the same day, be aggregated and billed at the applicable rate
    for the total weight of the shipments.

                  (8) Limited exceptions to carrier liability.



                                       28
               (9) Billing for the actual level of service performed.

                (10) Billing at the lowest tender rate if a specific level of
service is not requested.

              (11) Carrier certification of delivery before DoD will pay for
the transportation costs and carrier certification in PowerTrack, to the
extent possible.

             (12) Use of the Defense Table of Official Distances to
determine the shortest highway distance.

               (13) Requirement that carriers report astray freight.

USTRANSCOM Comments. USTRANSCOM concurred and agreed to include
the 13 criteria in the finalization of Draft Publication No. 5.

Audit Response. Although USTRANSCOM concurred, the comments were not
fully responsive in that USTRANSCOM did not include a planned completion
date. We request that management provide a planned completion date in response
to the final report.

       b. Develop an index of international air freight tenders and post the
index along with international air freight tenders to the Web site until the
new transportation routing system is implemented.

USTRANSCOM Comments. USTRANSCOM concurred with comment.
USTRANSCOM stated that AMC maintains a matrix of international air tenders
on its Web site. The matrix is updated monthly and lists the carrier, tender
number, route, effective date, and expiration date of each approved tender. Until
tenders can be rated electronically, posting tenders to a Web site will not provide
transportation officers with any more information than currently available with
paper copies.

Audit Response. Although USTRANSCOM concurred, the comments were not
fully responsive. Posting tenders to a Web site would allow transportation
officers to electronically access up-to-date tender information. Further, having
transportation officers rely on paper copies of tenders violates the principles of
electronic commerce. One of the goals of MRM No. 15 was to increase the use of
electronic commerce. The purpose of electronic commerce is to increase the
efficiency of the DoD procurement process, reduce cost, and eliminate paper. We
request that management provide additional comments in response to the final
report that address complying with electronic commerce requirements until the
tenders can be rated electronically.

       c. Direct that information on international air freight tenders,
including rates, be electronically entered into the new transportation routing
system, once implemented.




                                     29
USTRANSCOM Comments. USTRANSCOM concurred and stated that it will
continue the automation effort, pending the development of the transportation
routing system.

Audit Response. Although USTRANSCOM concurred, the comments were not
fully responsive in that USTRANSCOM did not include a planned completion
date. We request that management provide a planned completion date in response
to the final report.

        d. Review international air freight tenders before approval to ensure
that international air freight tenders:

               (1) Do not compete with Worldwide Express contracts.

               (2) Do not compete with the six channel routes with daily
flights.

               (3) Are from qualified Civil Reserve Air Fleet carriers.

             (4) Do not compete with General Services Administration
small package contracts.

               (5) Do not include domestic rates.

       e. Review existing international air freight tenders and revoke any
tenders that:

               (1) Compete with Worldwide Express contracts.

               (2) Compete with the six channel routes with daily flights.

               (3) Are not from qualified Civil Reserve Air Fleet carriers.

             (4) Compete with General Services Administration small
package contracts.
               (5) Include domestic rates.

USTRANSCOM Comments. USTRANSCOM concurred with comment, stating
that Recommendations 1.d.(1) through 1.d.(3) and 1.e.(1) through 1.e.(3) are
already applied to international air tenders. USTRANSCOM also stated that
international air tenders do not compete with GSA small package contracts and
that domestic rates are not included in international air tenders.

Audit Response. Although USTRANSCOM concurred, the comments were not
fully responsive. One tender in our sample competed with the Worldwide
Express contracts and another competed with one of the six channel routes. The
first tender offered service for shipments weighing less than 150 pounds to a
location served by a Worldwide Express contractor. Because the Worldwide
Express contractor offered service that was as fast or faster than the international
air tender, we concluded that the tender competed with the Worldwide Express


                                     30
contract. The second tender offered service for shipments weighing less than
150 pounds to within 50 miles of a location served by daily channel flights, one of
the six channel routes discussed in this report. Because 50 miles is a reasonable
distance for a carrier that offers door-to-door service, we concluded that the
tender competed with the daily channel flight.

In addition, 2 of the 12 carriers with international air tenders were not qualified
CRAF carriers. Also, because Alaska, Hawaii, and Puerto Rico are included in
the GSA small package contracts but are excluded from the domestic tenders
according to Publication No. 5, international air tenders offering service between
the continental United States and Alaska, Hawaii, or Puerto Rico compete with
GSA small package contracts.

Lastly, of the 12 international air tenders reviewed, 3 included domestic rates.
Two of the three tenders with domestic rates included security services, which
AMC officials stated could not be entered into the transportation routing system.
One of the three tenders with domestic rates included shipments within the United
States, including Alaska and Hawaii. As a result of management comments, we
added Recommendations 1.k. and 2.d. to require that information, including
security services, be electronically entered into the new transportation routing
system for both domestic and international air tenders.

We request that management provide additional comments in response to the final
report that describe what additional review steps will be taken to ensure that
international air tenders do not compete with Worldwide Express contracts or
with the six channel routes. Comments should also describe what additional
review steps will be taken to ensure that international air tenders are from
qualified CRAF carriers, do not compete with GSA small package contracts, and
do not include domestic rates.

       f. Review international air freight tenders each fiscal year, revoke
any tenders from carriers that are no longer qualified Civil Reserve Air Fleet
carriers, and post to the Air Mobility Command Web site a notice that the
tenders were revoked.

USTRANSCOM Comments. USTRANSCOM concurred with comment, stating
that tenders are reviewed on submission. Tenders can only be revised to change
the expiration data of a tender. When a carrier is removed from the CRAF
program, the tender is void.

Audit Response. Although USTRANSCOM concurred, the comments were not
fully responsive. The August 26, 2002, AMC files of international air tenders
included tenders from carriers that had not been members of the CRAF program
since October 1, 2001. Therefore, we revised draft Recommendation 1.f. to
require that tenders from carriers that are no longer qualified CRAF carriers be
revoked and notice of the revocation be posted to the Web site. It is important for
AMC to find a means to notify transportation officers when tenders are no longer
valid because a carrier is no longer a qualified CRAF carrier. We request that
management provide comments in response to the final report on the revised
recommendation.



                                     31
      g. Direct all carriers to use PowerTrack for shipments originating in
the United States.

USTRANSCOM Comments. USTRANSCOM concurred and stated that the
Draft Publication No. 5 already covers the requirement.

Audit Response. Although USTRANSCOM concurred, the comments were not
fully responsive in that USTRANSCOM did not include a planned completion
date for finalizing Draft Publication No. 5. We request that management provide
a planned completion date in response to the final report.

       h. Direct all carriers to use PowerTrack for shipments originating
outside the United States as PowerTrack is implemented at sites outside the
United States.

USTRANSCOM Comments. USTRANSCOM concurred and stated that AMC
agreed to impose the requirement when the draft rules are finalized and when
PowerTrack can include shipments originating outside the United States. The use
of PowerTrack is mandated for all shipments covered by Draft Publication No. 5.

Audit Response. Although USTRANSCOM concurred, the comments were not
fully responsive. Draft Publication No. 5 mandates the use of PowerTrack for all
shipments via air tenders. However, carriers cannot use PowerTrack for all
shipments originating outside the United States until DoD implements
PowerTrack at all DoD overseas locations. Therefore, Draft Publication No. 5
needs to be revised to require carriers use PowerTrack for shipments as
PowerTrack is implemented overseas, rather than for all shipments via air tenders.
We request that management provide additional comments in response to the final
report that address how Draft Publication No. 5 will be revised to require the use
of PowerTrack as it is implemented at sites outside the United States.

       i. Review international air freight tenders on a periodic basis to
ensure compliance with new policy.

USTRANSCOM Comments. USTRANSCOM concurred with comment, stating
that tenders are reviewed at the time of submission. Tenders can only be revised
to change the expiration date of a tender.

Audit Response. Although USTRANSCOM concurred, the comments were not
fully responsive. The 12 tenders we reviewed had been reviewed by AMC at the
time of submission; however, we found that the tenders were not all in
compliance with AMC policy. Therefore, we believe a periodic review is
necessary to ensure that international air tenders comply with policies. We
request that management provide additional comments in response to the final
report that detail what additional steps, other than review at time of submission,
will be taken to ensure that international air tenders are in compliance with
policies.




                                    32
       j. Disapprove tenders filed on Optional Form 280, “Uniform Tender
of Rates and/or Charges for Transportation Services,” that include domestic
rates and require that domestic rates be filed on MT Form 364-R,
“Department of Defense Standard Tender of Freight Services,” in
accordance with “AMC [Air Mobility Command] Freight Traffic Rules
Publication No. 5,” January 15, 1999.

       k. Direct that information on domestic air freight tenders, including
security services, be electronically entered into the new transportation
routing system when it is implemented.

2. We recommend that the Commander, Military Traffic Management
Command:

       a. Establish standard rules for international air freight tenders by
revising the “MTMC [Military Traffic Management Command] Standard
Tender Instruction Publication No. 364-C,” September 1, 2000.

        b. Establish standard rules for international air freight tenders by
finalizing the draft MT Form 364-R, “Department of Defense Standard
Tender of Freight Services,” and including standard international delivery
zones.

USTRANSCOM Comments. USTRANSCOM concurred, stating that
Publication No. 364-C and Form 364-R had been revised and staffed with AMC.
Because the current transportation routing system is scheduled to be replaced
about January 2004, a moratorium was placed on system changes; therefore, the
revised rules cannot be incorporated into the current system.

Audit Response. Although USTRANSCOM concurred, the comments were not
fully responsive. USTRANSCOM did not include dates that the revised
instruction and form will be issued and effective. In addition, standardization of
international air freight tenders is not dependent on the transportation routing
system. Standardization of international air tenders will protect the interests of
DoD and result in comparable information being available to transportation
officers. The comparable information can then be made available electronically
when the new transportation routing system is implemented. We request that
management provide additional comments in response to the final report that
specifically address planned completion dates for implementing the revised
instruction and form.

      c. Establish a process for entering international air freight tender
information electronically into the new transportation routing system.

USTRANSCOM Comments. USTRANSCOM concurred and stated that the
first increment of the replacement transportation routing system will provide the
capability to manage tenders. AMC and MTMC will coordinate the requirements
for international air freight shipments.




                                    33
Audit Response. Although USTRANSCOM concurred, the comments were not
fully responsive in that USTRANSCOM did not include a planned completion
date. We request that management provide a planned completion date in response
to the final report.

       d. Establish a process for electronically entering domestic air freight
tender information, including security services, into the new transportation
routing system.

3. We recommend that the Commander, Air Mobility Command and the
Commander, Military Traffic Management Command develop a plan of
action, including milestones, for:

      a. Interim actions that can be completed independently of the
implementation of the new transportation routing system.

USTRANSCOM Comments. USTRANSCOM concurred and stated that AMC
will notify MTMC and the air carriers that the international air tender
standardization effort is being re-initiated. AMC will review and update Draft
Publication No. 5 and ask MTMC to review it. The updated draft publication will
be posted and the air carriers will be given 30 days to comment. AMC will
address and resolve comments on the draft publication.

Audit Response. Although USTRANSCOM concurred, the comments were not
fully responsive in that USTRANSCOM did not include a planned completion
date. We request that management provide a planned completion date in response
to the final report.

       b. Actions that need to be completed to plan the new transportation
routing system.

USTRANSCOM Comments. USTRANSCOM concurred and stated that the
contract for the new transportation routing system is pending. The new system
will be phased in incrementally, with fielding to users scheduled about January
2004.
      c. Actions that need to be completed to implement the new
transportation routing system.

USTRANSCOM Comments. USTRANSCOM concurred and stated that a
contract for the new transportation routing system is pending. The contractor will
develop a milestone plan for the time-phased development, testing, and evaluation
of the new transportation routing system and will provide recommendations and
alternatives to the Government for the milestone plan acceptance. The system
will provide quantitative metrics, no later than 365 days after contract award, to
evaluate tenders for domestic and international transportation.

Army Comments. Although not required to comment, the Army agreed with the
recommendations.




                                    34
Air Force Comments. Although not required to comment, the Air Force agreed
with most of the recommendations. In response to Recommendations 1.d.(2) and
1.e.(2), the Air Force stated that tenders should be allowed as alternatives for the
six channel routes served by daily AMC channel flights. The memorandum
“Transportation Acquisition Policy,” January 1998, from the then-Under
Secretary of Defense for Acquisition and Technology, states that the fundamental
DoD transportation policy is that requirements shall be met, to the maximum
extent possible, through the use of commercial transportation resources. In
addition, DoD Directive 4500.9, “Transportation and Traffic Management,”
January 26, 1989, requires the use of AMC airlift (AMC-owned or
AMC-contracted airlift) for international movement of DoD freight when AMC
airlift capability is available and meets mission requirements. However, when
AMC airlift is not available to meet requirements, DoD components may arrange
alternative transportation capability through AMC or directly with commercial
carriers. That results in timely, expedited service when AMC channel service is
saturated or unable to provide timely service. The Air Force further stated that
any decisions based on tender usage must be based on the development of a
viable process and must provide factual data on the use of tenders, including
timeliness of delivery and weight airlifted.

Audit Response. The AMC decision to restrict international tenders that
competed with the six channel routes was in accordance with National Security
Decision Directive Number 280, “National Airlift Policy,” June 4, 1987. AMC
stated that restrictions on international air tenders were necessary to maintain
aircrew readiness and training. The directive states that both military and
commercial airlift resources are equally important to ensure that airlift resources
are able to meet defense mobilization and deployment requirements. In addition,
the directive states that U.S. policies shall be designed to strengthen and improve
military airlift and, where appropriate, enhance the mobilization base of the U.S.
commercial air carrier industry. Further, the goal is to maintain peacetime
military airlift resources to ensure airlift capability during wartime, contingencies,
and emergencies. The directive also states that commercial air carriers will be
relied on to provide airlift capability beyond that available through military airlift
resources.

The scope of this audit did not include the adequacy of the AMC channel flights
to the six locations or whether commercial service was needed. However, we
agree with the Air Force that decisions on tender usage should be based on factual
data. Therefore, the Air Force needs to develop factual data that documents any
shortfalls of the AMC channel flights. If the factual data shows that any aspect of
the AMC channel flights is not adequate, the Air Force should provide that data to
AMC. AMC can then decide the best way to correct any shortfall in accordance
with DoD Regulation 4500.9-R, “Defense Transportation Regulation,” Part II,
“Cargo Movement,” December 2000, which describes the preferred methods of
airlift. The first preference is airlift arranged, operated, or negotiated by AMC.
The second preference is contracts with CRAF carriers. The third preference is
arrangements, such as international air tenders, with CRAF carriers.




                                     35
Appendix A. Scope and Methodology
   The initial scope of this audit included a review of the effectiveness of procedures
   and controls over DoD freight shipments paid through PowerTrack. Specifically,
   we were to evaluate the tender submission and approval process, the effectiveness
   of established payment procedures, and the controls over the delivery of freight
   shipments. However, as a result of delays in obtaining PowerTrack data, which
   we needed to analyze the payment procedures and controls over delivery, we
   limited our scope to controls over the submission and approval process of
   international air freight tenders.

   We reviewed National Security Decision Directive Number 280, DoD
   Directive 4500.9, and DoD Regulation 4500.9-R, which contain information on
   airlift policy. We also reviewed Publication No. 5 and Publication No. 364-C
   concerning the governing rules and preparation instructions for domestic air
   tenders. We also reviewed Draft Publication No. 5 for international air tenders.
   Those documents were dated from June 1987 through March 2001. Of the
   76 international air tenders from 12 air carriers that were in effect as of
   August 26, 2002, according to AMC files of international air tenders, we
   judgmentally selected and analyzed one tender for each carrier. The
   12 international air tenders were analyzed for compliance with AMC policies and
   procedures for approving international air tenders. The provisions of the
   12 international air tenders were also analyzed and compared to the domestic air
   tender requirements in Publication No. 5 and Publication No. 364-C and the
   proposed requirements in Draft Publication No. 5 and Draft Form 364-R. The
   12 international air tenders were further analyzed to determine whether the
   interests of DoD were protected and whether the international air tenders needed
   to be standardized. We performed audit work at AMC, MTMC, the Services, the
   U.S. European Command, the U.S. Pacific Command, USTRANSCOM, and
   Worldwide Express offices.

   We performed this audit from April through December 2002 in accordance with
   generally accepted government auditing standards. We updated elements of this
   report based on management comments received in March 2003.
   The project manager for this audit was a member of the working group that
   presided over the implementation of PowerTrack within DoD. His role in that
   group was generally limited to attending briefings at the O-6 and Board of
   Director levels as an observer/adviser. However, he had no direct vote as to the
   determination of management policies that would be implemented.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in DoD. This report provides coverage of
   the Financial Management and Infrastructure Management high-risk areas.




                                        36
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls over the submission and approval process for
    international air freight tenders. We also reviewed management’s self-evaluation
    of those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for AMC, as defined by DoD Instruction 5010.40. AMC
    management controls over the submission and approval of international air freight
    tenders were not adequate to ensure that the interests of DoD were protected.
    Recommendations 1. and 3., if implemented, will correct the identified
    weaknesses and provide adequate controls over the submission and approval
    process for international air freight tenders. A copy of the report will be provided
    to the senior official responsible for management controls in AMC.

    Adequacy of Management’s Self-Evaluation. AMC officials did not identify
    the management of the international air freight tender submission and approval
    process as an assessable unit and, therefore, did not identify or report the material
    management control weaknesses identified by the audit.


Prior Coverage
    IG DoD Report No. D-2001-148, “Automated Transportation Payments,”
    June 22, 2003.




                                         37
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Defense Procurement and Acquisition Policy
Assistant Deputy Under Secretary of Defense (Transportation Policy)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Commands
Commander, U.S. Pacific Command
Commander, U.S. European Command
Commander, U.S. Transportation Command
  Commander, Air Mobility Command
  Commander, Military Traffic Management Command

Non-Defense Federal Organization
Office of Management and Budget




                                          38
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and
  International Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental
  Relations, and the Census, Committee on Government Reform




                                        39
U.S. Transportation Command Comments




                    41
42
     Final Report
      Reference




     Revised




     Revised




43
44
45
Final Report
 Reference




           *




               *NACG 9002 was a rules tender that governed NACG 9003 and was not included in the sample of 12 tenders.
                                                               46
Department of the Army Comments
                                  Final Report
                                   Reference




                                  Enclosures
                                  omitted




                    47
Department of the Air Force Comments




                     48
49
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Kimberley A. Caprio
Dennis E. Payne
Albert L. Putnam
Cynthia G. Williams
Clara L. Stanfield
Michelle S. Emigh
Elizabeth N. Shifflett
